The Library of Congress
Office of the Inspector General




                 Contracts Services
    Congressional Research Service
     Office of the General Counsel
            Consulting Contracts: More
         Competition, Cost Analysis, and
       Administrative Compliance Needed

            Audit Report No. 2000-INA-LCWD-004

                                  September 2002
  UNITED STATES GOVERNMENT                                LIBRARY OF CONGRESS
  Memorandum                                                Office of the Inspector General


TO:           James H. Billington                                         September 30, 2002
              Librarian of Congress

FROM:         Karl W. Schornagel
              Inspector General
SUBJECT:      Consulting Contracts: More Competition, Cost
              Analysis, and Administrative Compliance Needed
              Audit Report No. 2000-INA-LCWD-004


This transmits our final audit report on the Library's use of consulting contracts.
Recommendations in the report apply to the Congressional Research Service (CRS), Integrated
Support Services (ISS), the Office of General Counsel (OGC), and the Financial Services
Directorate (FSD). Recommendations I, II A, III A & B, V A & C, and VI pertain to CRS;
recommendations V A & B, VI, VII B & C, and VIII B through XII pertain to ISS;
recommendations II B, VII A & B, and VIII A pertain to OGC, and recommendations VII A
pertain to FSD.

CRS, ISS, OGC, and FSD responses are briefly summarized in the Executive Summary beginning
on page i, and in more detail after individual recommendations beginning on page 6. CRS, OGC
and FSD's complete responses are included as Appendixes D, E, and F respectively. ISS did not
provide a written response to the draft report; however, we summarized its verbal comments and a
February 5, 2001 written response from the former Chief of Contracts Services. The later response
addressed some of our preliminary findings and recommendations.

We request that CRS, ISS and OGC provide an action plan addressing implementation of the
recommendations, including implementation dates, within 90 calendar days in accordance with
LCR 1519-1, Section 4.B. The action plans should address only those recommendations that
have not been fully implemented.

We appreciate the cooperation and courtesies extended by CRS, ISS, OGC, and FSD staff during
the audit.

cc:    Deputy Librarian of Congress
       Director, Congressional Research Service
       Director, Integrated Support Services
       Director, Financial Services Directorate
       General Counsel
       Acting Head of Contracts Services
The Library of Congress                                 Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                               September 2002



                                  TABLE OF CONTENTS


EXECUTIVE SUMMARY…………………………………………………………………… i

INTRODUCTION………………………………………….………………………………....                                            1

OBJECTIVES, SCOPE, AND METHODOLOGY………...…………………………………                                    3

FINDINGS AND RECOMMENDATIONS……...…………………………………………...                                     5
I.    CRS Acquisitions, Except for Experts and Consultants,
        Should Be Referred to Contracts Services…………….…………..………….…...                    5
II.   CRS Contracting Policies and Procedures Need Expanding..………………………...               7
III.  CRS Should Train Its COTRs……………….………………………………………...                                8
IV.   CRS Should Document Contract Negotiations………………..………………………                         9
V.    CRS and Contracts Services Could Realize
        Savings By Analyzing Cost Proposals.……………...……………………………..                        10
VI.   CRS and Contracts Services Should Check
        Debarment Lists Prior to Awarding Contracts…………………….…………….…                      12
VII. Contracts Services’ Approval Process Needs Streamlining…………………………..                 12
VIII. Contracts Services Could Obtain Better Value
        By Competing Consulting Contracts.……...…………..…………………………..                        13
IX.   Contracts Services Should Scrutinize Sole Source Justifications
        and Comply with Certification and Approval Requirements...…………………….              15
X.    Contracts Services Could Better Support Service Units and Avoid
        “Contract Splitting” By Utilizing Alternative Contracting Vehicles…...………….      16
XI.   Contracts Services Should Require Statements of Work
        Before Negotiating Contracts…………………….………...………………………                             17
XII. Contracts Services Should Avoid Awarding Contracts
        To Current Library Employees……...…………………………………..…………                             18

 APPENDIXES
     A. Consolidated List of Recommendations………………………………………...                           20
     B. Acronyms Used in This Report……………………………………………….....                              23
     C. Summary of Specific Findings by Contract.…………………………………….                         24
     D. Formal Response to the Draft Report – CRS……………………………………                          26
     E. Formal Response to the Draft Report – OGC…………………………………...                        36
     F. Formal Response to the Draft Report – FSD……………………………………                          39
     G. OGC Legal Opinion……………………………………………………………..                                       40
The Library of Congress                                        Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                      September 2002


                                  EXECUTIVE SUMMARY

The Library of Congress uses consultants for a wide range of assistance, such as technical
presentations, information technology support, and business assessments. Reliance on
consultants has increased significantly in recent years. From FY 1999 to FY 2001, the value of
consulting contracts increased 30 percent, from $6.2 million to $8.1 million annually. The
Library voluntarily follows the Federal Acquisition Regulation (FAR) in the acquisition of
supplies and services. However, the Congressional Research Service (CRS) is exempt from
following the FAR for contracts within its statutory procurement authority.

The objective of our audit was to determine whether Contracts Services and CRS’s consulting
contracts are cost effective and comply with regulations. We found that in many instances,
consulting contracts are not cost effective and do not comply with regulations. We found
consistent trends of limited or no competition, insufficient cost analysis, and inadequate sole
source justifications. Specifically, we found insufficient competition in 65 percent of the
contracts we sampled and inadequate cost analysis in 73 percent of the contracts. Eighty-two
percent of the sampled contracts were sole source. We found little evidence that contracting staff
negotiate overhead or profit rates. Collectively, these conditions show that the Library is not
focused on obtaining best value for its contracting expenditures. Our conclusion is especially
relevant to Contracts Services because it awards the vast majority of the Library’s contracts and
the majority of our findings relate to its activities. The following paragraphs highlight the
individual issues addressed in this report.

CRS has statutory authority to procure temporary expert and consultant services
noncompetitively, and it awarded multiple consecutive sole source contracts to the same vendor
for computer support and training. We interpret CRS’s exemption from competition to apply
only to services to directly support Congressional needs such as research or studies, and we
question the temporary classification of the contracts. We recommend that CRS reconsider its
classification of computer support and training and refer these service needs to Contracts
Services for competitive selection.

All five project managers on sampled CRS contracts need training for performing important
duties as Contracting Officer’s Technical Representatives (COTR). These COTRs play an
important role in ensuring quality contractor performance. Also, CRS files contained insufficient
documentation explaining how cost and pricing were determined, or why specified profit and
overhead rates were accepted. CRS could be vulnerable in the event of protests without this
documentation, and pay too much for its services.

CRS does not have written contracting policies and procedures for (a) contract administration,
(b) personal and organizational conflicts of interest, (c) government property, (d) record
retention, (e) quality assurance, and (f) acquisition planning. These are important controls to
ensure the integrity of the acquisition process. Although CRS is not required to follow the FAR,




                                                i
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


it should identify those uniform FAR controls that are relevant to CRS operations and
incorporate them into its internal contracting policies.

CRS and Contracts Services could obtain significant savings by identifying high-risk cost
elements and contracts and performing cost analyses. We found insufficient pre-award cost
analyses on 16 of 22 sampled contracts. We also found that debarment lists are not checked
prior to awarding contracts. We recommend that CRS and Contracts Services train their
contracting officers to perform these analyses and check debarment lists prior to awarding
contracts.

Three sole source justifications processed by Contracts Services are not in compliance with FAR
Part 6.301(c)(1). The justifications cite lack of time for competition as the basis for sole source
award. By the explicit terms of the FAR, lack of advanced planning is not an acceptable
justification for contracting without providing for full and open competition. Noncompetitive
contract awards adversely affect the Library’s ability to obtain the best value on goods and
services. The Library may also be vulnerable to protests from other contractors who were
excluded from competing for the contracts. We recommend that Contracts Service’s contracting
officers review sole source justifications and return those that are not in compliance, and issue a
memorandum to service units specifically stating the criteria for using sole source contracts. We
found that Contracts Services issued one contract to a current Library employee, raising a
conflict of interest issue. We recommend employment certification before contracts are
awarded.

We found no indication that Contracts Services acts to enhance consultant competition. Eleven
out of 17 of its consultant contracts were sole source with no indication of competition. The
Library’s policies are inconsistent concerning competition for consultants who perform in
person. The Acting Head of Contracts Services believes that competition is not required when
contracting with individuals. However, internal Contracts Services operating instructions require
competition when other sources are available. LCR 1514-3 is not clear as to when competition is
required. There is, however, agreement that competition is required when companies are
engaged as consultants and other sources are available.

Extensive use of noncompetitive contracts diminishes the Library’s ability to obtain the best
value for goods and services and can give the appearance of bias and favoritism in the
contracting process. We added a new recommendation not contained in our draft report, that the
Library’s Office of the General Counsel (OGC) rewrite LCR 1514-3 to clarify the competition
requirements for consultants; and when required, Contracts Services foster greater competition
though market research and outreach efforts as prescribed in FAR 10.002 (b)(2).

Contracts Services has excessive signature requirements that slow down the procurement process
and delay the delivery of goods and services. Financial Services Directorate’s (FSD) approval
adds no benefit on consulting contracts and we recommend that it be discontinued. OGC
approval for consulting contracts under $25,000 also adds little if any benefit and should be




                                                 ii
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


discontinued. Contracts Services and OGC should develop written procedures for OGC’s
approval role for larger contracts.

Finally, Contracts Services should avoid “contract splitting” to stay under review/approval
thresholds and ensure that contract requests are supported by adequate statements of work. We
also recommend use of alternative contracting vehicles such as blanket purchase agreements and
indefinite delivery indefinite quantity contracts to improve the efficiency and flexibility of its
contracting operations.

We conducted exit conferences with CRS on December 17, 2001, OGC on February 5, 2002, and
Contracts Services on April 23, 2002. CRS and OGC agree with all our findings and
recommendations except for our interpretation of CRS’s statutory contracting authority. FSD
concurs. Contracts Services did not respond in writing to our draft audit report. However, the
former Chief of Contracts and Logistics, in a February 2001 letter, generally concurred with our
preliminary findings and recommendations. We have included in this report a summary of a
recent verbal response from the Acting Head of Contracts Services concerning findings VIII and
IX. For all other findings, we have provided comments based on the February 2001 response. A
complete list of our recommendations is included as Appendix A.




                                                iii
The Library of Congress                                        Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                      September 2002


                                      INTRODUCTION

In recent years, the federal government has significantly changed how it buys goods and
services. In particular, the process has become more streamlined as new contract vehicles and
techniques have allowed agencies to buy what they need faster than in the past. These
streamlined policies have become incorporated into the Federal Acquisition Regulation (FAR).
The vision for the FAR is to deliver, on a timely basis, the best value product or service to the
customer, while maintaining the public's trust and fulfilling public policy objectives. LCR 1614-
2 states that it is the policy of the Library to follow the FAR in the acquisition of supplies and
services. When exercising its direct statutory procurement authority, the Congressional Research
Service (CRS) is not legally required to follow the FAR and therefore does not adhere to the
LCRs that address contracting.

LCR 1514-3, Engagement of Consultants and Experts as Contractors for Delivery of a Specific
Article or Service, covers individuals contracted by the Library on a nonpersonal basis and
requires completion of form 52. Based on the contract dollar value, form 52 has various
management approvals that must be signed prior to award. LCR 1614-2, Acquisition of Supplies
and Services, addresses companies under contract to perform consulting services and provides
certain Library officers contracting authority to award and process contracts independently of
Contracts Services.

The contracting officer is the Library’s sole agent with the authority to award, administer, and
terminate contracts. The contracting officer is required to ensure that all requirements of law,
regulations, and other applicable requirements are met. The Contracting Officer’s Technical
Representative (COTR) is delegated authority by the contracting officer to monitor the technical
performance of the contractor and ensure compliance with contractual terms. The Office of the
General Counsel (OGC) provides overall legal assistance, such as procurement law and ethics
guidance, to contracting officers to assist them in the execution of their respective duties.

Contracts Services has a Contract Review Board (CRB), separate from CRS, that consists of a
minimum of four members who approve high dollar contract actions. Once approved, the CRB
case file is submitted to OGC for legal review.

In FY 2002 Contracts Services created the Procurement System Advisory Group (PSAG). The
PSAG is a forum for professionals in various disciplines within the Library of Congress to share
their collective knowledge to achieve improved customer service and efficiencies through the
Library’s procurement system. Contracts Services has internal operating instructions and in
January 1999, it published the Acquisition Alerts Handbook. The purpose of the Handbook is to
assist in the prevention of problems during the acquisition process.




                                                1
The Library of Congress                                                        Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                                      September 2002


CRS’s statutory authority for direct procurement derives from the Legislative Reorganization
Act of 1970 1 , 2 U.S.C. § 166(h), which provides:

(h)(1) The Director of the Congressional Research Service may procure the temporary or
       intermittent assistance of individual experts or consultants (including stenographic
       reporters) and of persons learned in particular or specialized fields of knowledge –

           (A) By nonpersonal service contract, without regard to any provision of law
               requiring advertising for contract bids, with the individual expert, consultant,
               or other person concerned as an independent contractor, for the furnishing by
               him to the Congressional Research Service of a written study, treatise, theme,
               discourse, dissertation, thesis, summary, advisory opinion, or other end
               product; 2

(h)(2) The Director of the Congressional Research Service may procure by contract, without
       regard to any provision of law requiring advertising for contract bids, the temporary (for
       respective periods not in excess of one year) or intermittent assistance of educational,
       research or other organizations of experts and consultants (including stenographic
       reporters) and of educational, research, and other organizations of persons learned in
       particular or specialized fields of knowledge.

CRS’s contracting policies are its Guidelines for External Research Contracting. The
Guidelines, dated March 1999 and revised in June 2001, include information on CRB
membership and member responsibilities, price negotiation, project manager responsibilities, and
other general information. Attachment A to the guideline, Request for External Research
Support, contains contract-related questions that are completed by the project manager and
presented to the CRS CRB for approval prior to award.

Approximately 250 Library employees request a variety of procurement actions. The Library
maintains a universe of about 14,000 contractors to fulfill employee requests, although many of
these sources are inactive. The types of consulting services required range from providing one-
day presentations to providing software, maintenance, and technical support for the Library’s
financial management system. The reliance on consultants to fulfill the Library’s mission
increased by 30 percent from FY 1999 expenses of $6.2 million to $8.1 million in FY 2001 as
illustrated in Table 1.




1
    Legislative Reorganization Act of 1970, Public Law 91-510, 84 Stat. 1140, 1380.
2
    Paragraph (h)(1) B authorizes personal services contracts, which were not the subject of this audit.



                                                             2
The Library of Congress                                          Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                        September 2002


                                  Table 1.   Library Consulting Activity



                                                                    $8.1 million
                                               $7.6 million

                       $6.2 million




                          1999                    2000                 2001

                                        Consulting Dollars


                         OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to determine whether the Library’s consulting contracts were cost
effective and complied with regulations. We reviewed contracts awarded from
October 1, 1998 to May 31, 2000. Specific audit steps included:

    •   Reviewing contract files to evaluate statements of work, contract modifications,
        proposals, miscellaneous consultant correspondence, and final contract documentation;
    •   Reviewing consultant work products;
    •   Interviewing Library staff including contracting officers; COTRs; and representatives
        from Contracts Services, Financial Services Directorate (FSD), OGC, and CRS;
    •   Evaluating the source selection process;
    •   Reviewing CRS and Contracts Services internal contracting policies;
    •   Interviewing contracting representatives from the General Accounting Office and the
        Office of Personnel Management; and
    •   Reviewing personnel files of consultants who were former Library employees.

We included as our audit universe all consultant payments disbursed from accounting object
class 2550 from October 1, 1998 to May 31, 2000. We judgmentally selected 7 contracts that
exceeded $300,000 and statistically sampled 31 other contracts which exceeded $1,000 in value;
however, this amount was later judgmentally reduced to 15 contracts, based on the consistency
and uniformity of our findings through the initial reviews. These 22 contracts accounted for




                                                    3
The Library of Congress                                        Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                      September 2002


$3,311,590 in consulting contracts. See Appendix C for a list of audited contracts. In addition,
we judgmentally sampled former Library employees to evaluate the appropriateness of using
these individuals as consultants.

Our fieldwork was performed from September 2000 to March 2001. The fieldwork was
interrupted while we awaited an opinion from OGC regarding CRS’s contracting authority and
compliance with the FAR, and due to workload demands of our office. Additional fieldwork
was performed in November 2001 and April 2002 to ensure the original findings and
recommendations were current and relevant. The audit was conducted in accordance with
Government Auditing Standards issued by the Comptroller General of the United States and
LCR 1519-1, Audits and Reviews by the Office of the Inspector General, October 18, 1999.




                                                4
The Library of Congress                                              Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                            September 2002


                                  FINDINGS AND RECOMMENDATIONS

In many cases, the Library’s consulting contracts are not cost effective and do not comply with
regulations. Table 2 illustrates that there is insufficient cost analysis, limited competition, and
excessive use of sole source contracts in obtaining consulting services. We found little evidence
that overhead and profit rates are negotiated. Collectively, these conditions show that the
Library is not committed to obtaining best value for its consultant contracting expenditures.
These conditions are especially prevalent in Contracts Services, where the majority of contract
actions are processed.

                                   Table 2.     Sampled Consulting Contracts




                                 Inadequate Cost Analysis                 73%
     Conditions




                                    Lack of Competition                 65%

                                          Sole Source Awards                      82%

                  0%                25%                  50%               75%                  100%

                                              Percentage of Contracts


We found that contracts awarded by Contracts Services could be expedited by eliminating
excessive signature requirements that slow down the procurement process and delay the delivery
of goods and services. Contracts Services also awards contracts without reviewing debarment
lists. In addition, Contracts Services does not require adequate sole source justifications and
statements of work. Further, Contracts Services does not utilize alternative contract vehicles to
avoid contract splitting, and in one case, awarded a contract to a current employee. We found
that CRS needs to expand its contracting policies, generate additional contract negotiation
documentation, train its COTRs, check debarment lists, and refer certain acquisitions to
Contracts Services.

I.                CRS Acquisitions, Except for Experts and Consultants,
                  Should Be Referred to Contracts Services

CRS’s statutory authority permits noncompetitive acquisitions for experts and consultants on a
temporary basis. We believe CRS exercised a broad interpretation of the statute in awarding
noncompetitive contracts for computer support and training. The contracts included indirect




                                                        5
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


generic information technology services and training support. The services included training;
one on one employee consultations on WordPerfect, Quattro Pro, and Corel; troubleshooting;
providing technical assistance; arranging for outside repair of computers, monitors, and printers;
a new employee consultation on the differences between Word and WordPerfect; and supporting
the CRS relocation project, including the scheduling and timing of employee office moves.
These tasks represent routine information technology support that should be contracted through
Contracts Services.

CRS awarded the same contractor at least three consecutive contracts for almost one year each,
therefore, we also question their temporary classification. The first two, valued at $391,778 and
$448,960 respectively, were awarded without competition. The most recent contract was
awarded competitively. CRS also awarded, without competition, three consecutive consulting
contracts to a former employee valued at $79,684, $68,000 and $72,200. Although these
contracts had an approximate one-month break between awards and did not technically violate
the “intermittent” requirement, they could be viewed as other than temporary.

Our interpretation of 2 U.S.C. § 166(h), CRS’s exclusive authority for contracting, is that the
exemption from competition is intended for services that would be used directly to support
Congressional needs such as research or studies. On January 18, 2001, we requested a legal
opinion from OGC on this matter. On November 7, 2001, OGC responded that it does not
believe CRS exceeded the scope of its statutory authority under 2 U.S.C. § 166 (h)(2). OGC
stated that because the terms “expert,” “consultant,” or “persons learned in specialized fields of
knowledge” are not defined in the CRS statute, legislative history or other applicable sections of
U.S. Code, it cannot conclude that organizations of persons learned in computer technology are
outside the scope of the statute. CRS maintains that the intent of 2 U.S.C. § 166 is to permit the
flexibility to quickly support Congress, and interprets the computer support and training contract
as a mechanism to support its research capacity and therefore facilitate its Congressional support.

CRS may not have obtained the best price or value on these contracts and others due to the lack
of competition. Additionally, opportunities for volume purchase discounts exist when
procurements are combined with other Library-wide procurements. Finally, the appearance of
favoritism exists when consecutive sole source contracts are awarded to the same contractor.

Recommendation

CRS should use Contracts Services to procure all contracts except for temporary or intermittent
consultants or experts.

CRS Response and OIG Comments

CRS does not concur with the OIG interpretation that its statutory exemption from competition is
intended for services that would be used directly to support Congressional needs such as research
or studies. CRS’s response is based on OGC’s legal opinion that concluded the contracts in




                                                6
The Library of Congress                                          Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                        September 2002


question were within the scope of CRS’s direct procurement authority. OGC stated, “While it
may be intuitively reasonable to infer that the intent of the CRS statute is to provide maximum
flexibility to acquire assistance from policy experts on substantive matters to supplement the
capabilities of the Service’s permanent staff, the language of the statute is not this restrictive.”
OGC concluded that organizations of persons learned in computer technology are not outside the
scope of the statute. CRS adds that per LCR 211-10, OGC is the final legal advisor for all
Library matters and the final report should be revised to conform to OGC’s conclusion.

We disagree with the OGC opinion. Although the statute does not define the terms “expert,”
“consultant,” or “persons learned in specialized fields of knowledge” we do not believe the
statute should exclude CRS from obtaining competition for widely available and routine support
services such as off-the-shelf computer applications and associated training.

OGC was not initially asked to provide an opinion on whether the contracts in question comply
with the statute regarding the “temporary” requirements. However, based on subsequent
questions from our office, the OGC opinion stated, “If CRS had a requirement for long term
support from an individual or organization that would be satisfied by letting a contract for a
period in excess of one year, it would not be within the scope of CRS’s statutory authority. Such
a requirement would have to be procured through the Library’s regular competitive contracting
procedures.” As stated above, CRS awarded consecutive contracts to an individual and an
organization that have been in place for several years. CRS responded that it is mindful of the
requirement and will continue to exercise vigilance in the conduct of its contract authority.

CRS agreed that there may be opportunities for volume discounts when combining procurements
with the Library and it will pursue these opportunities when they have shared requirements.

II.   CRS Contracting Policies and Procedures Need Expanding

CRS does not have written contracting policies and procedures for (a) contract administration,
(b) personal and organizational conflicts of interest, (c) government property, (d) record
retention, (e) quality assurance, and (f) acquisition planning. In the contract administration area,
the policies do not address contract modifications, terminations, subcontracting restrictions, and
pricing. The policies do not address the use of Library property such as computers and office
space. The Guidelines are silent on the establishment, maintenance, and disposal of CRS
contract files and the contractor’s record retention requirements.

Although CRS is not required to comply with the FAR, LCR 1614-2 does not mention the
exclusion. Even though the exclusion exists, the FAR contains many important controls to
ensure the integrity of the acquisition process that should be incorporated into CRS’s policies.
Without these policies, there is little assurance employees are performing contracting tasks in a
manner consistent with management’s intent for internal controls.




                                                 7
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


The Standards for Internal Controls in the Federal Government (GAO/AIMD-00-21.3.1),
November 1999 states: “Internal controls and all transactions and other significant events need
to be clearly documented, and the documentation should be readily available for examination.
The documentation should appear in management directives, administrative policies, or
operating manuals and may be in paper or electronic form. All documentation and records
should be properly managed and maintained.”

Two senior CRS officials with extensive knowledge of CRS procurements recently retired. The
need for written policies and procedures is more pronounced without these individuals.

Recommendations

A.    CRS should expand its current contract Guidelines to include policy on important
      acquisition controls for awarding, administering, and terminating contracts as detailed in
      Finding II. The FAR should be used to identify specific procedures that are relevant to
      CRS operations.

B.    OGC should revise LCR 1614-2 to clarify that CRS is exempt from following the FAR for
      contracts within CRS statutory procurement authority.

CRS and OGC Responses and OIG Comments

CRS and OGC concur with the recommendations. CRS will develop more comprehensive
internal guidelines and has begun to review the FAR to identify specific procedures that are
relevant to its operations. OGC has revised LCR 1614-2 to clarify that the policy does not apply
to CRS for procurements under its statutory authority.

III. CRS Should Train Its COTRs

None of the five CRS project managers who served as COTRs on our sampled contracts attended
the Library’s COTR training course. Although the Library’s COTR training does not focus on
the CRS contracting environment, it provides basic information on COTR duties and
responsibilities. Attachment C to CRS’s contract Guidelines, Designation of CRS Project
Manager, defines project manager responsibilities and includes specific duties and tasks.
However, this form was not provided to the project managers who served as COTRs. Without
this guidance, COTRs may not recognize when additional contractor services/tasks are needed;
properly review and evaluate contractor performance; document, retain, and forward pertinent
records to a successor COTR or contract specialist; and notify contracting officers of
unauthorized contractor actions.




                                                 8
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


Based on our oral recommendation during our review, CRS revised Attachment C to the
Guidelines. The attachment has been put in letter format and includes additional guidance. The
new attachment requires project manager and contract specialist signatures prior to contract
award.

Recommendations

A.    CRS should train its COTRs.

B.    CRS contract specialist and COTR signatures should be required on Attachment C prior to
      all contract awards.

CRS Response and OIG Comments

CRS concurs with the recommendation and will develop an in-house training module that
includes OIG input in the course outline development. CRS also implemented the signatures
requirement on Attachment C prior to contract award.

IV. CRS Should Document Contract Negotiations

The five CRS contract files we reviewed did not contain sufficient documentation of the
negotiations. The files contained no documentation or correspondence explaining how the final
cost and pricing was determined or the positions taken by the consultants/contractors or the
Library. On a CRS computer support contract, there was no documentation explaining why
different profit rates were applied to different contract tasks. On another contract, the contract
specialist could not explain why an eight percent overhead rate was given to a former employee
as an independent consultant and other consultants in similar circumstances received different
rates.

CRS could be vulnerable without this documentation in the event of a protest. Also, valuable
cost and pricing information that could be used in subsequent contracts would not be available.
This lack of information could result in CRS being at a competitive disadvantage with future
contracts and consequently paying more for consulting services.

According to the contract specialist, her predecessor always maintained the contract files in this
manner and she was following the model. Based on the recommendations provided at the exit
conference, the contract specialist has begun to document the contract file with the principal
elements of the negotiated agreement.




                                                 9
The Library of Congress                                          Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                        September 2002


Recommendation

CRS should institute a policy requiring the contracting officer and contract specialist to
document the contract file with the principal elements of negotiated agreements.

CRS Response and OIG Comments

CRS concurs with the recommendation.

V.    CRS and Contracts Services Could Realize
      Savings By Analyzing Cost Proposals

CRS and Contracts Services did not perform sufficient pre-award cost analyses on 16 of 22
sampled consulting contracts. On a sole source contract valued at            , CRS paid an
overhead rate of 54.98 percent. The Defense Contract Audit Agency performed an unrelated
audit of this contractor prior to the award and recommended an overhead rate of 37 percent.
Additionally, the negotiated rate with this firm was 40.5 percent on the two previous contracts.
There was no record of any analysis of this potentially inflated overhead rate.

The contract award justification contained incorrect information that may have been relied on by
the Contract Review Board. The justification states that the contractor’s costs were based on
rates from the previous contract in which its costs were clearly the lowest among several bidders.
However, the previous contract was not competitive. There was an even earlier competitive
contract, but the vendor was not the lowest bidder. The apparent cause for accepting the
increased overhead rate without any analysis was that another firm purchased the contractor prior
to the award and the rate may have increased under the new company. Regardless, the rate
should have been negotiated. Overhead rates are often reduced as a result of negotiation.

On a Contracts Services sole source contract valued at             , there was no travel or fringe
benefit analysis. Also, the overhead rate was applied to student assistants on the contract
modification, however, the base contract did not include this additional cost. The contracting
officer did not ask any questions or challenge any cost elements in the proposal. On the student
assistants alone, this may have resulted in savings of $6,041. Although this amount does not
seem to be significant, it represents the potential savings on only one cost element in the
contract. CRS and Contracts Services could obtain significant savings if they would identify
those high risk cost elements and contracts and perform cost analyses.

FAR Part 15.404.1 (c) defines cost analysis as the review and evaluation of the separate cost
elements and profit in an offeror's or contractor's proposal (including cost or pricing data or
information other than cost or pricing data), and the application of judgment to determine how
well the proposed costs represent what the cost of the contract should be, assuming reasonable
economy and efficiency. FAR Part 15.402 states: “The contracting officer should use every




                                                10
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


means available to ascertain whether a fair and reasonable price can be determined before
requesting cost or pricing data.”

Although CRS recently provided contract pricing training to its contract specialist, its Guidelines
do not require cost analyses to be performed. Attachment A to its Guidelines includes general
questions regarding cost, however, none of the questions address cost analyses or indirect
overhead rate reviews.

Recommendations

A.    CRS and Contracts Services should develop and implement policies that require sufficient
      cost analysis.

B.    Contracts Services should train its contracting officials on the requirements and guidance to
      perform these analyses.

C.    CRS contracting officials should obtain outside sources when needed to perform cost and
      pricing audits such as the Office of the Inspector General and the Defense Contract Audit
      Agency.

CRS and Contracts Services Responses and OIG Comments

CRS concurs with the recommendations and provided cost analysis training to its contract
specialist. CRS states that cost analyses are performed to determine that the overall price is
reasonable. The analyses include comparing proposed prices to prior contracts, GSA rates, and
its knowledge of the market. We believe the training is a step in the right direction, however, we
don’t believe the prior analyses alone suffice for cost analyses. CRS’s knowledge of market
prices is limited due to the small number of contracts awarded. We believe the GSA internet
check may provide a very general estimate of labor rates; however, without a proposal from
competing firms, it may not be comparable to the CRS contract. The analyses that were
performed, particularly in a sole source environment, cannot be exclusively relied upon and
detailed cost analysis may be required.

The former Chief of Contracts and Logistics (C&L) did not concur with the recommendation
because relevant training was provided in 1999 and the CRB procedures contain a step-by-step
guide for conducting cost analyses. We agree that the 1999 training course was a step in the
right direction; however, the CRB procedures do not contain any information on how to conduct
cost analyses. We maintain that the cost analyses are not taking place and contracting officers
need more training in this area.




                                                11
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


VI. CRS and Contracts Services Should Check
    Debarment Lists Prior To Awarding Contracts

The Library is at risk of awarding contracts to unscrupulous or dishonest consultants because
CRS and Contracts Services contracting officers do not check debarment listings prior to
awarding contracts. LCR 1630 states “After the opening of bids or receipt of proposals, the
contracting or granting officer shall review the “Library of Congress List of Those Excluded
From Procurement Programs,” as well as the government-wide list maintained by the General
Services Administration (GSA).” Additionally, it states, “Immediately prior to award, the
Contracting or Granting Officer shall again review the lists to ensure that no award is made to a
listed contractor.” The GSA debarment list provides a single comprehensive listing of
consolidated business firms and individuals debarred, suspended, or otherwise excluded by
government agencies from receiving federal contracts.

Library contracting officers were unaware of the requirement to check the debarment listings.
Based on our audit recommendations, CRS and Contracts Services have begun to check
debarment lists prior to contract award.

Recommendation

CRS and Contracts Services should check GSA debarment lists prior to awarding contracts.

CRS and Contracts Services Responses and OIG Comments

CRS and Contracts Services concur with the recommendation and are now checking the
debarment lists.

VII. Contracts Services’ Approval Process Needs Streamlining

Contracts Services has excessive signature requirements that slow down the procurement process
and delay the delivery of services within the Library and ultimately to the public. The
completion of form 52 “Recommendation for Engagement of Consultant or Expert as
Contractor” is required on individual consulting contracts. Form 52 must be signed by the
Division Chief, Service Unit Head, Director of Financial Services or Budget Officer, General
Counsel, and Contracting Officer.

LCR 1514-3 “Engagement of Consultants and Experts as Contractors for Delivery of a Specific
Article or Service” requires form 52 to be certified by FSD as to the availability and proper use
of funds for all consultant contracts. We believe FSD approval adds no benefit or value on
consulting contracts of any amount. The approval was initiated to ensure the availability of
funds prior to contract award. FSD’s approval authority has been a long-standing requirement
and LCR 1514-3 apparently has not been reviewed since the Library upgraded its financial




                                                12
The Library of Congress                                        Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                      September 2002


management systems. Financial system upgrades have provided the Library service units the
ability to review the availability of funds themselves prior to awarding contracts.

LCR 1514-3 and LCR 1614-2 “Acquisition of Supplies and Services” require the concurrence of
OGC for consulting contracts in excess of $25,000 and $50,000 respectively. Under current
practice, however, OGC review is sought on consultant contracts at all levels. The OGC
approval for consulting contracts under $25,000 adds little if any benefit or value and is not
required by the LCRs. There is also an apparent misunderstanding between OGC and Contracts
Services regarding the purpose of the OGC review. Contracts Services believes that OGC is
performing a “legal sufficiency” review and ensuring compliance with the post employment
restrictions of former employees. However, OGC is not reviewing the contracts for compliance
with the post employment restrictions, but rather, is performing informal cost analyses on some
contracts. Cost analyses are the contracting officer’s responsibility.

Recommendations

A.    OGC should revise LCR 1514-3 eliminating the requirement for the Director of FSD or the
      Budget Officer to approve consulting contracts.

B.    Contracts Services should revise form 52 and discontinue OGC approval for consulting
      contracts under $25,000.

C.    Contracts Services and OGC should define and document the scope of the OGC consulting
      contract reviews.

Contracts Services, OGC and FSD Responses and OIG Comments

OGC and FSD concur with the recommendation to revise LCR 1514-3 and eliminate the FSD
approval requirement. The former Chief of C&L concurred with the recommendations to revise
form 52 and document the scope of OGC reviews. OGC concurs with the recommendation to
document the scope of OGC consulting contract reviews.

VIII. Contracts Services Could Obtain Better
      Value By Competing Consulting Contracts

We found no indication that Contracts Services enhanced competition by conducting outreach or
market research activities to identify alternative offerors. Eleven of the 17 consulting contracts
were sole source in which the contracting officer did not seek adequate competition. For
example, Contracts Services awarded two separate sole source contracts for the Visitors Services
Office (VSO) for $14,280 each to perform Bicentennial tours. The contract recipients were a
married couple who had previously volunteered their services to the VSO. The COTR informed
us that there were many other qualified individuals, however, additional quotes were not




                                               13
The Library of Congress                                                    Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                                  September 2002


requested because the VSO staff liked the two award recipients. Contracts Services’ continued
use of noncompetitive contracts could have affected its ability to obtain the best value for these
services.

The lack of competition in Contracts Services contracts is attributable, in part, to inconsistencies
in the Library’s policies concerning competition. LCR 1514-3 is not clear about when
competition is required for individual consultants who perform in person. However, Contracts
Services internal policies require competition for individual consultants. The Contracts Services
Acquisition Alerts Handbook requires obtaining three quotes on procurements between $2,500
and $25,000; and formal solicitations are required for procurements exceeding $25,000.
Contracts Services Operating Instruction number 1030, Engagement of Consultants and Experts
as Contractors for Delivery of a Specific Article or Service, requires the contract specialist
determine that only one source is available prior to contract award. FAR Part 10.001(a)(2)(ii)
states that Agencies must conduct market research appropriate to the circumstances before
soliciting offers for acquisitions with an estimated value in excess of the $100,000 simplified
acquisition threshold.

In many cases, contracting officers publicized notices in the Commerce Business Daily (CBD).
Contracts Services now publicizes contracts on the internet through FedBizOpps. 3 While the
CBD notification satisfied the minimum requirement of a market survey, more should be done.
Additional guidance for outreach efforts is contained in FAR 10.002 (b)(2).

Recommendations

A.       OGC should revise LCRs 1514-3 and 1614-2 to clarify when competition is required.

B.       Contracts Services should foster greater competition by: (1) contacting knowledgeable
         individuals in government and industry regarding vendor capabilities to meet Library
         requirements; (2) publishing formal requests for information in appropriate technical or
         scientific journals or business publications; (3) querying government databases that provide
         information relevant to agency acquisitions; (4) participating in interactive, on-line
         communication among industry, acquisition personnel, and customers; (5) obtaining source
         lists of similar items from other contracting activities or agencies, trade associations, or
         other sources; and (6) reviewing catalogs and other generally available product literature.

Contracts Services and OGC Response and OIG Comments

The Acting Head of Contracts Services stated verbally that acquisitions for individual
consultants and experts, of unlimited contract value, are not required to have competition. We
disagree. The Contracts Services operating instruction requires the contracts specialist
demonstrate that only one source is available before awarding a sole source contract. The
individual consultants selected in our audit performed generic work that could have been
3
    FedBizOpps is a government-wide on-line system used to advertise procurement actions.



                                                         14
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


performed by others. We believe that Contracts Services should comply with its policies and
begin competing individual consultants as required. The Library will obtain better value by
competing contracts.

OGC concurs that LCRs 1514-3 and 1614-2 should be rewritten and that market research should
be conducted. OGC does not concur that full competitive procedures must be or necessarily
should be applied to contracts for consultant individuals. OGC adds that the level of competition
the Library requires for individual consultants will be a policy matter to be worked out in the
process of revising the LCRs. We agree that this issue should be addressed when the LCRs are
rewritten, but believe that the Library should obtain more competition in its procurements even if
the competition is not specifically required by law. Without this competition, the Library is
likely paying more than it needs to for services. The task of revising the LCRs should begin as
soon as possible.

IX. Contracts Services Should Scrutinize Sole Source Justifications
    and Comply with Certification and Approval Requirements

Contracts Services contracting officers do not scrutinize justifications to support the award of
sole source contracts. For example, the justification on one National Digital Library (NDL) sole
source contract for $101,045 stated there was insufficient time for public solicitation and the
consultant was the only source who could provide the required expert training support service in
the allowable time. This justification is not in compliance with FAR Part 6.301(c)(1) which
specifically states, “Contracting without providing for full and open competition shall not be
justified on the basis of a lack of advance planning by the requiring activity.” The contracting
officer accepted the justification and awarded the contract without submitting the contract file to
the Contract Review Board (CRB). CRB procedures dated July 13, 1999; Part 7n requires the
submission of non-competitive procurements exceeding $100,000 to the CRB. Some contracting
officers may not have been aware of their responsibilities.

On another sole source contract, the senior contracting official’s justification and signature were
not included in the award of a $656,019 contract. FAR Part 6.303-1(a) states, “A contracting
officer shall not commence negotiations for a sole source contract … or award any other contract
without providing for full and open competition unless the contracting officer (1) justifies, if
required in FAR 6.302, the use of such actions in writing; (2) certifies the accuracy and
completeness of the justification; and (3) obtains the approval required by FAR 6.304.” This
requires senior level procurement official approval for contract actions exceeding $500,000,
including the dollar value of all options.

Contracts Services’ actions in continuing to award these contracts noncompetitively affects its
ability to obtain the best value on contracts. Also, the Library may be vulnerable to protests
from other contractors who are excluded from contract solicitations. Use of unsupported sole
source contracts also gives the appearance of bias and favoritism in the contracting process.




                                                15
The Library of Congress                                           Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                         September 2002


Recommendations

A.       Contracts Services’ contracting officers should review sole source justifications for
         compliance with FAR Part 6 requirements and return to the service units any that are not in
         compliance.

B.       Contracts Services should require that all Contracting Officers comply with the CRB
         review procedures for non-competitive contracts that exceed $100,000 and FAR
         requirements for certification and approval of contracts exceeding $500,000.

C.       Contracts Services should also issue a memorandum to service units specifically stating the
         criteria for using sole source contracts. The memorandum should emphasize that a lack of
         advanced planning is not sufficient justification for sole source contracting.

Contracts Services Response and OIG Comments

The Acting Head of Contracts Services verbally responded that the sole source justifications
were not required in two of the above instances because the consultants were individuals. She
agreed that adequate justifications are required for the two companies involved. We disagree
and believe the justifications were required in all of the instances. For the two individual
consultants, we believe the contracting officer has the authority to request sole source
justifications. In these instances where sole source justification is requested, it must meet the
FAR requirements.

The former Chief of C&L concurred with the recommendations and stated that the contracting
officers failed to comply with the FAR, CRB, and Acquisition Alerts Handbook.

X.       Contracts Services Could Better Support Service Units and Avoid
         “Contract Splitting” By Utilizing Alternative Contracting Vehicles

Contracts Services awarded multiple NDL sole source contracts to two consultants in the amount
of $2,500 per contract. The two consultants were contracted to periodically develop supporting
subject material to be placed on the American Memory website. A new contract was awarded
each time a subject was selected for the website. The consultants were awarded 17 contracts
totaling approximately $39,000 and $24,000 over a two-year period. NDL awards at the $2,500
level circumvented the three quotes required by the Contracts Services Acquisitions Alerts
Handbook and the advertising requirements of FAR Part 5. NDL also circumvented the
additional approval signatures of OGC and the Associate Librarian 4 for awards greater than
$25,000 as required by LCR 1514-3, Section 6.

Service units could benefit from combining multiple awards into larger, single acquisitions.
Larger acquisitions would require more initial effort in the award process; however, the
4
    The Library no longer has an Associate Librarian.



                                                        16
The Library of Congress                                          Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                        September 2002


avoidance of multiple awards would save time by eliminating the need to award separate contract
actions. The issuance of a purchase order would be the only requirement once the initial contract
is in place. Also, these contracts could better serve the needs of the service units and also
generate greater competition.

Contracts Services Acquisitions Alerts Handbook states, “split requirements for the purpose of
keeping estimated dollars under the simplified acquisition threshold, or other prescribed approval
or review levels is not permitted.” The FAR also prohibits splitting requirements to avoid
review/approval thresholds. The contracting officer did not require the service unit to combine
these contracts because she did not notice the repetitive contracts. Also, there was no apparent
supervision or review of the contracting files that may have detected the repetitive awards.

Recommendations

A.    Contracts Services should advise the service units of the availability of various contract
      vehicles, such as blanket purchasing agreements and indefinite delivery indefinite
      quantity contracts that can be awarded on a multi-year basis.

B.    Contracts Services should inform the service units that splitting requirements to avoid
      competition is not permitted by Library contracting policies and the FAR.

C.    Contracts Services should provide guidance to the contracting officers to ensure that
      requirements are not split and ensure that contracting officers are supervised including
      reviewing contract files prior to award.

Contracts Services Response and OIG Comments

The former Chief of C&L generally concurred with the recommendations and stated that through
the continuing COTR training course, service units have been advised that splitting requirements
to avoid competition is not permitted. We believe the COTR training is a good mechanism to
inform the service units. However, we have no indication that Contracts Services has advised
the service units of the availability of various contract vehicles and provided guidance to the
contracting officers to ensure that requirements are not split.

XI. Contracts Services Should Require Statements
    of Work Before Negotiating Contracts

Contracts Services awarded 2 of 17 sampled contracts without adequate Statements of Work
(SOW) from the service units. In one instance, the contracting officer used the consultant’s
proposal as a substitute for the SOW and on the other, accepted a one-page budget as a
substitute. Neither of these documents defined the functions to be performed or addressed
performance requirements.




                                                 17
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


Without a written SOW that precisely describes the service unit’s needs, the parties to the
contract may not know what is to be accomplished and the Library may be unable to adequately
measure the consultant’s performance. Additionally, significant legal and contractual problems
can be avoided if there is a clear, documented understanding of the scope of work. FAR Part
11.002(a)(2) states, “To the maximum extent practicable, ensure that acquisition officials (i) state
requirements with respect to an acquisition of supplies or services in terms of-- (A) functions to
be performed; (B) performance required…”

The reason for inadequate and/or non-existent SOWs appears to be insufficient pre-award
planning by the service units. In some cases, contracting officers were under pressure to award
contracts and had little time to fulfill service unit requests.

Recommendations

A.    Contracts Services should formally communicate to the service units that advanced
      planning is needed to allow sufficient time for SOW preparation and contracting officer
      award responsibilities.

B.    Contracts Services should return SOWs that do not state functional and performance
      requirements.

Contracts Services Response and OIG Comments

We have not received any response from Contracts Services. The recommendations remain.

XII. Contracts Services Should Avoid Awarding
     Contracts To Current Library Employees

Contracts Services awarded a $26,000 consulting contract to an NDL employee who resigned
after receipt of the contract award. Contract number 99LCAG1862 was awarded on June 24,
1999 and the effective resignation date of the consultant was July 28, 1999. NDL began
processing the paperwork to rehire the consultant as early as May 1999. The contracting officer
was unaware of the consultant’s status as a temporary employee when she prepared the purchase
order on June 24, 1999. These actions present the appearance of favoritism or preferential
treatment by the government toward its employees.

According to the FAR Part 3.601(a), a contracting officer shall not knowingly award a contract
to a government employee or to a business concern or other organization owned or substantially
owned or controlled by one or more government employees. This policy is intended to avoid
any conflict of interest that might arise between the employee’s interests and their government
duties. Form 52 also has an entry to document whether the engagement is for a current
employee.




                                                18
The Library of Congress                                        Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                      September 2002


Recommendation

Contracts Services should revise form 52 requiring COTRs to certify that consultants are not
Library employees or document the compelling reasons why it is necessary to contract with a
current employee. In the absence of this certification, the Contracting Officer should be required
to review the employment status of each consultant prior to contract award.

Contracts Services Response and OIG Comments

The former Chief of C&L did not respond to the form 52 revision, but stated that the burden to
review the employment status of all potential consultants cannot be placed on Contracts Services.

We believe the certification requirement relieves Contracts Services of the burden to check each
contract.




                                               19
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


                                                                                      Appendix A
                                                                                       (Page 1 of 3)

                                  Consolidated List of Recommendations

I.    CRS should use Contracts Services to procure all contracts except for temporary or
      intermittent consultants or experts.

II.   A. CRS should expand its current contract Guidelines to include policy on important
         acquisition controls for awarding, administering, and terminating contracts as detailed
         in Finding II. The FAR should be used to identify specific procedures that are relevant
         to CRS operations.

      B. OGC should revise LCR 1614-2 to clarify that CRS is exempt from following the FAR
         for contracts within CRS statutory procurement authority.

III. A. CRS should train its COTRs.

      B. CRS contract specialist and COTR signatures should be required on Attachment C prior
         to all contract awards.

IV. CRS should institute a policy requiring the contracting officer and contract specialist to
    document the contract file with the principal elements of negotiated agreements.

V.    A. CRS and Contracts Services should develop and implement policies that require
         sufficient cost analysis.

      B. Contracts Services should train its contracting officials on the requirements and
         guidance to perform these analyses.

      C. CRS contracting officials should obtain outside sources when needed to perform cost
         and pricing audits such as the Office of the Inspector General and the Defense Contract
         Audit Agency.

VI. CRS and Contracts Services should check GSA debarment lists prior to awarding contracts.

VII. A. OGC should revise LCR 1514-3 eliminating the requirement for the Director of FSD
        or the Budget Officer to approve consulting contracts.

      B. Contracts Services should revise form 52 and discontinue OGC approval for
         consulting contracts under $25,000.




                                                  20
The Library of Congress                                         Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                       September 2002


                                                                                     Appendix A
                                                                                      (Page 2 of 3)

      C. Contracts Services and OGC should define and document the scope of the OGC
         consulting contract reviews.

VIII. A. OGC should revise LCRs 1514-3 and 1614-2 to clarify when competition is required.

      B. Contracts Services should foster greater competition by: (1) contacting knowledgeable
         individuals in government and industry regarding vendor capabilities to meet Library
         requirements; (2) publishing formal requests for information in appropriate technical or
         scientific journals or business publications; (3) querying government databases that
         provide information relevant to agency acquisitions; (4) participating in interactive, on-
         line communication among industry, acquisition personnel, and customers; (5)
         obtaining source lists of similar items from other contracting activities or agencies,
         trade associations, or other sources; and (6) reviewing catalogs and other generally
         available product literature.

IX. A. Contracts Services’ contracting officers should review sole source justifications for
       compliance with FAR Part 6 requirements and return to the service units those that
       are not in compliance.

      B. Contracts Services should require that all Contracting Officers comply with the CRB
         review procedures for non-competitive contracts that exceed $100,000 and FAR
         requirements for certification and approval of contracts exceeding $500,000.

      C. Contracts Services should also issue a memorandum to service units specifically stating
         the criteria for using sole source contracts. The memorandum should emphasize that a
         lack of advanced planning is not sufficient justification for sole source contracting.

X.    A. Contracts Services should advise the service units of the availability of various
         contract vehicles, such as blanket purchasing agreements and indefinite delivery
         indefinite quantity contracts that can be awarded on a multi-year basis.

      B. Contracts Services should inform the service units that splitting requirements to avoid
         competition is not permitted by Library contracting policies and the FAR.

      C. Contracts Services should provide guidance to the contracting officers to ensure that
         requirements are not split and ensure that contracting officers are supervised including
         reviewing contract files prior to award.




                                                21
The Library of Congress                                      Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                    September 2002


                                                                                   Appendix A
                                                                                    (Page 3 of 3)

XI. A. Contracts Services should formally communicate to the service units that advanced
       planning is needed to allow sufficient time for SOW preparation and contracting
       officer award responsibilities.

      B. Contracts Services should return SOWs that do not state functional and performance
         requirements.

XII. Contracts Services should revise form 52 requiring COTRs to certify that consultants are
     not Library employees or document the compelling reasons why it is necessary to contract
     with a current employee. In the absence of this certification, the Contracting Officer
     should be required to review the employment status of each consultant prior to contract
     award.




                                              22
The Library of Congress                                        Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                      September 2002


                                                                                   Appendix B

                            Acronyms Used in This Report

      CBD          Commerce Business Daily
      CRB          Contract Review Board
      COTR         Contracting Officer’s Technical Representative
      CRS          Congressional Research Service
      C&L          Contracts and Logistics
      FAR          Federal Acquisition Regulation
      FFS          Federal Financial System
      FSD          Financial Services Directorate
      FY           Fiscal Year
      GAO          General Accounting Office
      GSA          General Services Administration
      LCR          Library of Congress Regulation
      NDL          National Digital Library
      SOW          Statement of Work
      OGC          Office of the General Counsel
      OIG          Office of the Inspector General
      USC          United States Code
      VSO          Visitor Services Office




                                                23
The Library of Congress                                                                            Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                                                          September 2002

                                                                                                                          Appendix C
                                                                                                                           (Page 1 of 2)


                                   Summary of Specific Findings For Contracts Services’ Contracts


Contract/Purchase                             Contract     Inadequate     Inadequate    Insufficient Sole       Split        Lack of
 Order Number                Consultant       Amount      Cost Analysis   Competition        Source           Purchases       SOW
                                                                                         Documentation
Contracts Services
  C-LC99021                                   $656,019         x                               x
 00CLCDV4900                                  $428,000
 00CLCDV2942                                  $410,329
 00CLCDV4268                                  $375,710         x                                                                x
 99CLCDV0221                                  $321,513         x
 98CLCDV1802                                  $309,991
 00CLCAG2883                                  $101,045         x              x                x
 98AG9802487                                   $54,500         x              x
 99CLCAG1862                                   $26,000         x              x                x
 00CLCAG2922                                   $24,000         x              x
 00CLCAG3154                                   $16,832         x              x                x                                x
 00CLCBP3730                                   $14,280         x              x                                   x
 99CLCSP9967                                    $2,500         x              x                                   x
 99CLCAG3464                                    $2,500         x              x                                   x
 99CLCAG0203                                    $2,500         x              x                                   x
 99CLCAG1916                                    $2,500         x              x                                   x
 99CLCAG3463                                    $2,500         x              x                                   x

      Subtotal                               $2,750,719
The Library of Congress                                                                             Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                                                                                           September 2002

                                                                                                                          Appendix C
                                                                                                                            (Page 2 of 2)



                                               Summary of Specific Findings For CRS Contracts


 Contract/Purchase                Consultant           Contract           Inadequate             Inadequate           Insufficient
  Order Number                                         Amount            Cost Analysis          Competition*         Documentation
                                                                                                    Note
  RWJ00-478-02                                           $1,500                                     N/A                     x
  RWJ99-478-06                                          $77,689                                     N/A                     x
     99-04                                              $10,220                                     N/A                     x
     00-11                                              $79,684               x                     N/A                     x
     99-21                                             $391,778               x                     N/A                     x

       Subtotal                                        $560,871

    Grand Total                                       $4,411,590

*CRS contracts do not require competition.
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 1 of 10)




                                  26
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 2 of 10)




                                  27
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 3 of 10)




                                  28
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 4 of 10)




                                  29
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 5 of 10)




                                  30
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 6 of 10)




                                  31
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 7 of 10)




                                  32
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 8 of 10)




                                  33
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                              (Page 9 of 10)




                                  34
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix D
                                                             (Page 10 of 10)




                                  35
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix E
                                                               (Page 1 of 3)




                                  36
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix E
                                                               (Page 2 of 3)




                                  37
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix E
                                                               (Page 3 of 3)




                                  38
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                              Appendix F
                                                               (Page 1 of 1)




                                  39
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                             Appendix G
                                                               (Page 1 of 4)




                                  40
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                             Appendix G
                                                               (Page 2 of 4)




                                  41
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                             Appendix G
                                                               (Page 3 of 4)




                                  42
The Library of Congress                Audit Report No. 2000-INA-LCWD-004
Office of the Inspector General                               September 2002

                                                             Appendix G
                                                               (Page 4 of 4)




                                  43
